Department of Health and Human Services
                 OFFICE OF
            INSPECTOR GENERAL




    NOT ALL OF NEBRASKA’S
      CONTROLS FOR ITS
 CHILD CARE SUBSIDY PROGRAM
   CLAIMS WERE EFFECTIVE


     Inquiries about this report may be addressed to the Office of Public Affairs at
                              Public.Affairs@oig.hhs.gov.




                                                       Gloria L. Jarmon
                                                    Deputy Inspector General

                                                             March 2014
                                                            A-07-11-03167
                           Office of Inspector General
                                            https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is to
protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the health
and welfare of beneficiaries served by those programs. This statutory mission is carried out through a
nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with its
own audit resources or by overseeing audit work done by others. Audits examine the performance of HHS
programs and/or its grantees and contractors in carrying out their respective responsibilities and are intended to
provide independent assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress, and
the public with timely, useful, and reliable information on significant issues. These evaluations focus on
preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of departmental
programs. To promote impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50 States
and the District of Columbia, OI utilizes its resources by actively coordinating with the Department of Justice
and other Federal, State, and local law enforcement authorities. The investigative efforts of OI often lead to
criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In connection
with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other guidance to the
health care industry concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

       Nebraska did not always have effective controls for its Child Care Subsidy
       program. We identified at least 1 control deficiency in 32 of 100 childcare claims
       reviewed and estimated that, as a result, the costs affected by these control
       deficiencies totaled approximately $16.4 million ($8.8 million Federal share).


WHY WE DID THIS REVIEW

Subsidized childcare services are available to assist low-income families, families receiving
temporary public assistance, and families transitioning from public assistance to obtain childcare
so that family members can work or attend training or education. The subsidized childcare
services are administered by each State and are funded in part by the Child Care and
Development Fund (CCDF) Federal program. A previous review conducted by the Government
Accountability Office revealed vulnerabilities in the administration of the CCDF program in
selected States.

The objective of this review was to determine whether the Nebraska Department of Health and
Human Services’ (State agency) controls for client and provider eligibility determinations and for
claims processing for the Child Care Subsidy program were effective.

BACKGROUND

Each State must develop, and submit to the Administration for Children and Families (ACF) for
approval, a State plan that identifies the purposes for which CCDF funds will be expended for
two grant periods (i.e., 2 fiscal years) and that designates a lead agency responsible for
administering childcare programs. In Nebraska, the State agency is the lead agency and is
responsible for administering the CCDF program at the State level, which is known as the Child
Care Subsidy program. As the lead agency, the State agency is required to oversee the
expenditure of funds by contractors, grantees, and other agencies of the Nebraska State
government to ensure that the funds are expended in accordance with Federal requirements.

The State agency paid childcare claims totaling $90,305,946 for the period April 1, 2010,
through March 31, 2011.

WHAT WE FOUND

The State agency’s controls for client and provider eligibility determinations and for claims
processing for the Child Care Subsidy program were not always effective. Of the provider
eligibility controls we tested, the State agency’s controls for the performance of provider
background checks were not effective, but the State agency’s controls for the maintenance of
required provider forms and for the completion of provider rate agreements were effective. Of
the claims processing controls we tested, the State agency’s controls for preventing payment to
providers in excess of amounts established by the State were not effective, but the State agency’s
controls for preventing payment to providers who were caring for their own children and for



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                               i
documenting supervisor approval of excess rates and excess units were effective. Of the client
eligibility controls we tested, the State agency’s controls for verifying client citizenship and
client age were not effective, but the State agency’s controls for verifying family income and for
verifying need-for-service eligibility were effective.

The State agency’s lack of sufficient written policies and procedures was the primary cause for
ineffective controls over the Child Care Subsidy program. Without written policies and
procedures, the State agency’s Child Care Subsidy program is vulnerable to fraud, waste, and
abuse.

Of the 100 claims reviewed, we determined that 32 claims showed evidence of ineffective
controls for client and provider eligibility and for claims processing. We estimated that
$16,412,057 ($8,759,115 Federal share) of the Child Care Subsidy program claims could have
had one or more of the control deficiencies we identified.

WHAT WE RECOMMEND

We recommend that the State agency improve its controls for client and provider eligibility
determinations and for claims processing to ensure that payments for the Child Care Subsidy
program are made for eligible clients and to eligible providers. Specifically, the State agency
should take steps to develop written policies and procedures that will:

    •   ensure that background checks, including criminal history checks and other State registry
        checks, are documented;

    •   validate that the units and rates paid to providers are in accordance with the State’s
        established maximum payment amounts;

    •   ensure that providers are being paid only for childcare that they provided during
        approved hours;

    •   maintain documentation to demonstrate that all clients are U.S. citizens or qualified
        aliens; and

    •   maintain documentation to demonstrate that all clients are eligible based on the age
        requirements.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency neither agreed nor disagreed with our
recommendations. However, the State agency’s comments described procedures that it had
implemented, or said it would implement, to address some of our findings. We maintain that all
of our findings and the associated recommendations remain valid.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                            ii
                                                     TABLE OF CONTENTS


INTRODUCTION ...................................................................................................................... 1

           Why We Did This Review .............................................................................................. 1

           Objective ......................................................................................................................... 1

           Background ..................................................................................................................... 1
                 Childcare Services Funded by Child Care and Development Fund ................... 1
                 Nebraska’s Child Care Subsidy Program ........................................................... 2

           How We Conducted This Review................................................................................... 3

FINDINGS .................................................................................................................................. 3

           Provider Eligibility Controls ........................................................................................... 5
                  Control Design and Testing for Provider Background Checks .......................... 5
                  State Agency Controls for Provider Background Checks
                    Were Not Effective .......................................................................................... 5

           Claims Processing Controls ............................................................................................ 6
                  Control Design and Testing for Childcare Payment Amounts ........................... 6
                  State Agency Controls for Childcare Payment Amounts
                    (Rates and Units) Were Not Effective ............................................................. 7

           Client Eligibility Controls ............................................................................................... 8
                  Control Design and Testing for Client Citizenship Verification ........................ 8
                  State Agency Controls for Client Citizenship Verification
                     Were Not Effective .......................................................................................... 8
                  Control Design and Testing for Client Age Verification .................................... 9
                  State Agency Controls for Client Age Verification
                     Were Not Effective .......................................................................................... 9

           State Agency Did Not Have Sufficient Written
             Policies and Procedures ............................................................................................... 9

           Costs Associated With Deficiencies ............................................................................. 10

RECOMMENDATIONS .......................................................................................................... 10

STATE AGENCY COMMENTS ............................................................................................. 10

OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 11




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                             iii
OTHER MATTERS.................................................................................................................. 12

APPENDIXES

          A: Audit Scope and Methodology ............................................................................... 14

          B: Statistical Sampling and Mathematical
             Calculation Methodology ........................................................................................ 17

          C: Aggregate Federal Share Percentage ...................................................................... 18

          D: Sample Results and Estimates ................................................................................ 19

          E: Summary of Sampled Items .................................................................................... 20

          F: Federal and State Criteria Related To
             Child Care and Development Fund.......................................................................... 24

          G: Controls Tested That Were Determined
             To Be Effective ....................................................................................................... 28

          H: State Agency Comments ......................................................................................... 31




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                    iv
                                              INTRODUCTION

WHY WE DID THIS REVIEW

Subsidized childcare services are available to assist low-income families, families receiving
temporary public assistance, and families transitioning from public assistance to obtain childcare
so that family members can work or attend training or education. The subsidized childcare
services are administered by each State and, under the provisions of the Child Care and
Development Block Grant Act and section 418 of the Social Security Act, are funded in part by
the Child Care and Development Fund (CCDF) Federal program.

A previous review conducted by the Government Accountability Office (GAO) revealed
vulnerabilities in the administration of the CCDF program in selected States. The GAO report
(Undercover Tests Show Five State Programs Are Vulnerable to Fraud and Abuse
(GAO-10-1062, issued September 2010)) found that the five States that it tested (Illinois,
Michigan, New York, Texas, and Washington) lacked controls for childcare assistance
application and billing processes for unregulated relative providers, leaving the program
vulnerable to fraud and abuse.

For the current audit, we reviewed the Nebraska Department of Health and Human Services’
(State agency) controls for three interrelated aspects of its childcare assistance program: client
eligibility, provider eligibility, and claims processing. 1

OBJECTIVE

Our objective was to determine whether the State agency’s controls for client and provider
eligibility determinations and for claims processing for the Child Care Subsidy program were
effective.

BACKGROUND

Childcare Services Funded by Child Care and Development Fund

At the Federal level, the U.S. Department of Health and Human Services, Administration for
Children and Families (ACF), administers the CCDF program. Under this program, States have
considerable latitude in implementing and administering their childcare programs. Each State
must develop and submit to ACF for approval a State plan that identifies the purposes for which
CCDF funds will be expended for two grant periods (i.e., 2 fiscal years (FYs)) and that
designates a lead agency responsible for administering childcare programs.

States provide subsidized childcare services to eligible families through certificates (vouchers) or
through grants and contracts with providers. Parents may select a childcare provider that
satisfies applicable State and local requirements. These requirements must address prevention
and control of infectious diseases, including immunizations; building and physical premises

1
 We use the term “client” to describe the child for whom the provider is being paid and the family of the child for
whom eligibility is being determined.


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                1
safety; and certain minimum levels of health and safety training, as well as any requirements
needed for State licensing, unless the provider is exempt from the licensing requirements.

Nebraska’s Child Care Subsidy Program

In Nebraska, the State agency is the lead agency and is responsible for administering the CCDF
program at the State level, which is known as the Child Care Subsidy program. As the lead
agency, the State agency is required to oversee the expenditure of funds by contractors, grantees,
and other agencies of the Nebraska State government to ensure that the funds are expended in
accordance with Federal requirements.

Nebraska’s Child Care Subsidy program is funded with Federal CCDF funds and State general
funds. Title 392 of the Nebraska Administrative Code (NAC), “Child Care Subsidy Program,”
establishes the requirements for the Child Care Subsidy program regardless of the funding source
(Federal CCDF funds or State general funds).

Under Nebraska’s Child Care Subsidy program, the childcare subsidy 2 may be provided to the
children in income-eligible families in which parents 3 are absent for a portion of the day due to
employment or participation in academic or vocational training or on-the-job training. The
subsidy may also be available for a limited period of time when a parent is looking for
employment (Employment First program 4) or when the parent who normally cares for the child
is absent from the home due to personal medical issues or has to care for another family member
with medical issues.

Nebraska’s Child Care Subsidy program also specifies that the childcare subsidy is provided
without regard to income when made on behalf of a child who would benefit from childcare
services in situations of abuse, neglect, or exploitation when a report will be made to the State
registries. 5

Approved childcare providers include (1) licensed childcare centers, (2) licensed family
childcare homes, (3) license-exempt family childcare homes, and (4) in-home providers (i.e.,
within the child’s own home). For this report, we refer to the latter two categories as
“nonlicensed providers.”




2
    We will refer to the subsidy payments for the Child Care Subsidy program as “childcare.”
3
 45 CFR § 98.2 defines a “parent” as “a parent by blood, marriage or adoption and also means a legal guardian, or
other person standing in loco parentis….”
4
    Employment First is Nebraska’s Temporary Assistance to Needy Families (TANF) program.
5
 The State agency must keep electronic records of individuals whom it or the courts find responsible for abuse and
neglect of a child or vulnerable adult. The State agency maintains these records in the Nebraska Child Abuse and
Neglect Central Register and in the Adult Abuse and Neglect Central Registry. We collectively refer to these two
databases as “State registries.” See http://dhhs.ne.gov/children_family_services/Pages/nea_cr.aspx.


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                               2
HOW WE CONDUCTED THIS REVIEW

We reviewed 100 paid childcare claims using a stratified random sample. We selected this
sample from 474,455 paid childcare claims totaling $90,305,946 (which included both Federal
and State funds) for the period of April 1, 2010, through March 31, 2011. We interviewed State
officials and reviewed applicable Federal and State laws, regulations, and available guidance to
obtain an understanding of the policies and procedures used to determine client and provider
eligibility and claims processing. We did not review the State agency’s overall internal control
structure. We reviewed only those controls that pertained to our objective.

Within the areas of client and provider eligibility and claims processing, we tested the controls
that the State agency had in place to help prevent fraud, waste, and abuse. For client eligibility,
we determined whether the State agency had controls in place to help ensure that all clients met
the eligibility requirements related to citizenship or qualified alien status, 6 age, family income,
and need for service. For provider eligibility, we determined whether the State agency had
controls in place to help ensure that all providers met the eligibility requirements related to
background checks, required forms, and provider rate agreements. For claims processing, we
determined whether the State agency had controls in place to help ensure that all claims
processed met the requirements related to providers and clients who live at the same address,
supervisory approval of excess units of childcare provided (units) and excess rates paid, and the
units and rates paid compared to the State agency’s authorized amounts.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology, Appendix B contains details of
our statistical sampling methodology, Appendix C contains details of our calculation of the
aggregate Federal share percentage, Appendix D contains our sample results and estimates,
Appendix E contains our summary of sampled items, Appendix F provides Federal and State
criteria related to the CCDF program, and Appendix G lists the State agency’s controls that we
tested and found to be effective.

                                                       FINDINGS

The State agency’s controls for client and provider eligibility determinations and for claims
processing for the Child Care Subsidy program were not always effective. 7 Of the provider
eligibility controls we tested, the State agency’s controls for the performance of provider
background checks were not effective, but the State agency’s controls for the maintenance of
6
    We collectively refer to citizenship and qualified alien status as “citizenship.”
7
 For each of the 100 randomly selected paid claims, we reviewed 10 specific controls for effectiveness. We
considered a control with 6 or more deficiencies (out of the 100 paid claims reviewed) as evidence of ineffective
controls, and a control objective with 5 or fewer control deficiencies as evidence of effective controls.



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                              3
required provider forms and for the completion of provider rate agreements were effective. Of
the claims processing controls we tested, the State agency’s controls for preventing payment to
providers in excess of amounts established by the State were not effective, but the State agency’s
controls for preventing payment to providers who were caring for their own children and for
documenting supervisor approval of excess rates and excess units were effective. Of the client
eligibility controls we tested, the State agency’s controls for verifying client citizenship and
client age were not effective, but the State agency’s controls for verifying family income and for
verifying need-for-service eligibility were effective.

The State agency’s lack of sufficient written policies and procedures was the primary cause for
ineffective controls over the Child Care Subsidy program. Without written policies and
procedures, the State agency’s Child Care Subsidy program is vulnerable to fraud, waste, and
abuse.

Of the 100 claims reviewed, we determined that 32 claims showed evidence of ineffective
controls for client and provider eligibility and for claims processing. We estimated that
$16,412,057 ($8,759,115 Federal share) of the Child Care Subsidy program claims could have
had one or more of the control deficiencies we identified. The extent of these control
deficiencies left the Child Care Subsidy program vulnerable to fraud, waste, and abuse. 8 The
graph below shows the number of control deficiencies we identified for each of the areas that we
reviewed. 9


                              Control Deficiencies Results
                       (Number of deficiencies out of 100 claims reviewed)
                                                        0               5   10        15   20

                              PROVIDER CONTROLS
                       Provider Background Checks                                     14
                           Required Provider Forms              1
                          Provider Rate Agreement           0
                   CLAIMS PROCESSING CONTROLS
                  Preventing Units/Rates in Excess                               11
                                                                                                Not Effective
                        Provider/Client Relationship                2                           Effective
     Supervisor Approval of Excess Units and Rates              1
                                  CLIENT CONTROLS
                      Client Citizenship Verification                       8
                              Client Age Verification                       8
                         Family Income Verification                 2
                            Eligible Need for Service       0

8
    We used the ineffective control deficiencies in our projection of affected cost amounts.
9
  Some of the individual claims reviewed had more than 1 control deficiency, resulting in a total of 32 claims with a
total of 47 control deficiencies.


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                              4
PROVIDER ELIGIBILITY CONTROLS

Control Design and Testing for Provider Background Checks

The State agency should have internal controls in place to prevent payments to childcare
providers that are the subject of substantiated reports of abuse or neglect and to protect children
from such providers. Appendix F provides criteria related to provider background checks.

Control Design

For each licensed childcare provider, State agency investigators were required to check that
childcare agencies had the appropriate policies in place and were conducting appropriate
background checks of employees. Investigators were also required to check licensed individual
providers and, where appropriate, household members, against the State registries.

For each nonlicensed childcare provider, State agency caseworkers were to perform background
checks of the individual provider and any applicable household members against the State
registries.

The State agency officials told us that they maintained the documentation of the background
check in the provider file and that State registries were checked after the provider made its initial
application for licensing or when a change in the provider status required a new application. 10

Control Testing

We obtained the provider files from the State agency and verified whether each file contained
documentation that the State agency had verified that background checks had been performed at
childcare agencies. For other licensed and nonlicensed childcare providers, we verified whether
the State agency had checked the provider and, where appropriate, household members, against
all of the required registries. Next, we verified that none of the checks had revealed any adverse
information about the provider and evaluated whether the State agency had adequately followed
up on any discrepancies.

State Agency Controls for Provider Background Checks
Were Not Effective

Of the 100 claims that we reviewed, we identified 14 claims, all involving nonlicensed providers,
for which the State agency’s provider files lacked documentation to support that the State agency
performed background checks against all of the required registries.

Without adequately documenting provider background checks, the State agency runs an
increased risk that care is being provided to children by individuals with histories of abuse and/or


10
  Generally, changes in provider status occur when a provider moves from one provider type to another; in such
cases a new provider application must be submitted.



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                           5
criminal convictions. The extent of these deficiencies indicated that the State agency’s controls
for obtaining provider background checks for nonlicensed providers were not effective.

CLAIMS PROCESSING CONTROLS

Control Design and Testing for Childcare Payment Amounts

The State agency should have internal controls in place that prevent childcare payment amounts
(rates or units) from being paid in excess of the State’s established maximum amounts.
Appendix F provides criteria related to the allowable rates and units for providers.

Control Design

The State agency required each provider to sign a provider agreement specifying the rates that
the provider would be paid. State agency officials told us that the State agency was required to
maintain a scanned copy of the agreement in the provider’s file. After the State agency approved
the provider to receive childcare payments, the State agency would establish the provider as a
payee within its computer system (N-FOCUS), 11 a task which included entering the provider
type and provider rates based on the provider agreement. 12 If the provider agreement was
subsequently updated, the new agreement information was entered in N-FOCUS.

The State agency also required each client to provide need-for-service documentation, which the
State agency then used to determine the number of childcare units for which the client would be
approved. 13, 14 The State agency maintained the need-for-service documentation in the client
file. After the State agency approved the client to receive childcare benefits, the State agency
established the client within N-FOCUS, a task which included entering the units approved for the
client.

Further, the State agency established system edits to help ensure that childcare payment amounts
would not be paid in excess of established maximum amounts.

Control Testing

We obtained the provider files from the State agency. We verified whether each file contained a
completed and signed provider agreement and ensured that the rates documented on the


11
  N-FOCUS is the Nebraska Family On-line Client User System, which the State agency uses for activities such as
intake, eligibility determinations, payments, and the monitoring of ongoing services.
12
     The provider type is one of the data elements the State uses to calculate the maximum provider rate amount.
13
  A need for service can consist primarily of attending work, job training, or educational program. We tested
controls related to need for service as part of our client eligibility work, the results of which can be found in
Appendix G.
14
 Under State regulations, units of childcare may be measured and claimed in either hours or days. See
Appendix F, “Claims Processing Criteria,” “State Regulations.”


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                              6
agreement matched the rates that were actually paid to the provider by comparing the agreed-
upon rates to the actual claim payment amount.

We also reviewed the number of units paid to the provider for the specific claim to determine
whether the units paid exceeded the State’s maximum of 18 hours per day unit or 60 hourly units
per week. We recalculated each payment based on the reported units provided and the
established rates to ensure that the payment was computed correctly.

State Agency Controls for Childcare Payment Amounts
(Rates and Units) Were Not Effective

Of the 100 childcare claims that we reviewed, all had completed and signed provider
agreements; however, we identified 11 claims that showed payment amounts (units or rates) in
excess of the State’s maximum amounts. For 10 of the 11 claims, we found that the respective
provider files contained a new provider agreement that changed the provider status, which
included a change to the provider type and rate. While N-FOCUS showed that the provider’s
profile had been updated with the new rate, the provider type had not been updated in N-FOCUS
to reflect the change in status. For each of the 10 claims, the provider status changed from
“licensed exempt provider” to “licensed provider,” which is eligible for higher rates. However,
established N-FOCUS system edits did not prevent providers from being paid at rates that were
inconsistent with the rates that the State had established for that provider type.

For 1 of the 11 claims, the provider was overpaid by 2.25 hours. Specifically, the provider was
paid for 14 day units plus 20.25 hourly units during a 15-day period. The State agency’s
maximum hourly units allowed per day are 18 hours; therefore, the provider was overpaid by
2.25 hours. Thus, established N-FOCUS system edits did not prevent the provider from being
paid for more units than were allowable.

In addition to the controls testing performed, we determined that the State agency did not have
procedures to ensure that providers were paid only for childcare that was provided to clients
during approved hours based on the needs of service. Specifically, we found that the State
agency did not track or consistently maintain documentation that identified what days and times
the client was approved for childcare and what days and times the provider actually provided the
care. Because the State agency did not track or consistently maintain this information, we could
not test the extent to which this control deficiency may have contributed to childcare payment
amounts being paid in excess of the State’s established maximum amounts.

Without ensuring that the rates and units paid to providers are consistent with the State’s
established amounts and that the reimbursed childcare occurred during the client’s approved
schedule based on needs of service, there is an increased risk that the State agency overpaid its
providers for childcare services rendered. As a result of these deficiencies, the State agency’s
controls for preventing excess payment amounts were not effective.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                              7
CLIENT ELIGIBILITY CONTROLS

Control Design and Testing for Client Citizenship Verification

The State agency should have internal controls in place that prevent childcare payments to
providers on behalf of clients who are not U.S. citizens or qualified aliens. Appendix F provides
criteria related to client citizenship.

Control Design

The State agency required each client to be a U.S. citizen or qualified alien and verified
citizenship to help ensure that it made childcare payments to providers on behalf of clients who
were eligible for assistance. To accomplish this, the State agency officials told us that they either
obtained proof-of-citizenship documentation directly from the client or checked citizenship by
accessing Nebraska’s Vital Statistics system, which compiles birth documentation for children
born within the State. For individuals who were not U.S. citizens, the State agency was required
to verify that the individual was a qualified alien using the Systematic Alien Verification for
Entitlements (SAVE) system. Furthermore, if the client provided his or her Social Security
number (SSN) as part of the application, the State agency sent the information to the Social
Security Administration (SSA) for verification.

State agency officials told us that when the State agency obtained citizenship documentation
directly from the client, a copy of the documentation was maintained in the client’s file. When
the State agency manually verified a client’s citizenship using the Vital Statistics system, the
State agency considered this action to constitute documentation of citizenship, in light of the fact
that the information was accessible within the Vital Statistics system. In such cases, when a
member of a family that was already in the N-FOCUS system gave birth to an additional child,
the Vital Statistics system automatically notified the N-FOCUS system of the birth, and the Vital
Statistics system added the child’s date of birth and SSN information to the client’s N-FOCUS
profile.

Control Testing

We obtained access to the client files from the State agency. We verified whether each file
contained documentation of citizenship verification by looking in the case file for (1) a copy of
the birth certificate or citizenship papers, (2) automatic notification from the Vital Statistics
system, or (3) caseworker notes regarding citizenship.

State Agency Controls for Client Citizenship Verification
Were Not Effective

Of the 100 claims that we reviewed, we identified 8 claims for which the case files contained no
evidence that the State agency had verified client citizenship.

Without evidence that the citizenship was verified and without a requirement to maintain
documentation from the Vital Statistics system, there was an increased risk that childcare was



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                              8
being provided to clients who were not eligible. As a result of the identified deficiencies, we
determined that the State agency’s controls for client citizenship verification were not effective.

Control Design and Testing for Client Age Verification

The State agency should have internal controls in place that prevent childcare payments to
providers on behalf of clients who exceed the legal age requirements. Appendix F provides
criteria related to client age.

Control Design

State agency officials told us that to prevent childcare payments to providers on behalf of clients
who exceed the legal age requirements, the State agency verified a client’s age by using his or
her citizenship documentation to obtain the date of birth and thus calculate the age. For a client
to be age-eligible, he or she must be either (1) 12 years old or younger, or (2) 18 years old or
younger and physically or mentally incapable of caring for himself or herself, be under court
supervision, or be involved in protective services. The child’s age must be verified in order to
qualify for childcare.

Control Testing

We obtained access to the client files from the State agency. We verified whether each client
met the age requirements by obtaining his or her date of birth from the citizenship documentation
and calculating the client’s age at the time of payment.

State Agency Controls for Client Age Verification
Were Not Effective

Of the 100 claims that we reviewed, we identified 8 claims for which the case files contained no
evidence that the State agency had verified client age.

Without evidence that the client’s age was verified, there was an increased risk that childcare
was being provided to clients who were not eligible. As a result of the identified deficiencies,
we determined that the State agency’s controls for client age verification were not effective.

STATE AGENCY DID NOT HAVE SUFFICIENT WRITTEN
POLICIES AND PROCEDURES

The State agency lacked sufficient written policies and procedures to guide its staff in tasks such
as determining provider and client eligibility and processing claims. Sufficient written policies
and procedures are a key element in a strong system of internal control. The lack of sufficient
written policies and procedures contributed to the ineffective application of the controls we
tested. Sufficient and clearly written policies and procedures can serve as a tool to help staff
understand the appropriate steps to performing critical tasks to help ensure adherence to Federal
and State laws and regulations, and doing so consistently. Without sufficient written policies and




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                9
procedures, the State agency’s Child Care Subsidy program is vulnerable to fraud, waste, and
abuse.

COSTS ASSOCIATED WITH DEFICIENCIES

We estimated that $16,412,057 ($8,759,115 Federal share) 15 of the Child Care Subsidy program
claims could have had one or more of the control deficiencies identified in this report.

                                         RECOMMENDATIONS

We recommend that the State agency improve its controls for client and provider eligibility
determinations and for claims processing to ensure that payments for the Child Care Subsidy
program are made for eligible clients and to eligible providers. Specifically, the State agency
should take steps to develop written policies and procedures that will:

     •   ensure that background checks, including criminal history checks and other State registry
         checks, are documented;

     •   validate that the units and rates paid to providers are in accordance with the State’s
         established maximum payment amounts;

     •   ensure that providers are being paid only for childcare that they provided during
         approved hours;

     •   maintain documentation to demonstrate that all clients are U.S. citizens or qualified
         aliens; and

     •   maintain documentation to demonstrate that all clients are eligible based on the age
         requirements.

                                    STATE AGENCY COMMENTS

In written comments on our draft report, the State agency neither agreed nor disagreed with our
recommendations. However, the State agency’s comments described procedures that it had
implemented, or said it would implement, to address some of our findings.

With respect to our first finding on provider background checks, the State agency said that
“[d]uring the review time frame … staff would have loaded/documented the background checks
for License Exempt Child Care Providers into the NFOCUS ORG Background Check Detail and
there would not have been paper copies in the file.” The State agency added that it “… will
review a percentage of Child Care Provider files monthly to ensure all required background
checks are completed and documented appropriately.” The State agency also said that it “… will


15
  To calculate the Federal share, we multiplied the $16,412,057 point estimate (Appendix D) by the 53.37 percent
aggregate Federal share percentage (Appendix C).



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                             10
develop a background checks process/procedure guide for staff responsible [for] provider
approvals on completing background checks on Child Care Subsidy Providers.”

With respect to our second finding on childcare payment amounts (rates and units), the State
agency identified several procedures that it had implemented or planned to implement.
Specifically, the State agency stated that it:

    •   “… [i]n August of 2012 … started a process where a sample [of] child care claims are
        tested each month for accuracy by comparing the claim to the provider attendance
        records to ensure that providers are being paid only for childcare that they provided
        during approved hours”;

    •   “… will review a sample of child care authorizations monthly to test for accuracy of need
        for service and of the units a client is authorized”;

    •   “… will review a percentage of Child Care Provider files monthly to ensure that
        NFOCUS system is updated to match the provider’s status, appropriate rates are
        established for the specific provider type, and required documentation are in the provider
        file”; and

    •   “… will create system edits …. [and] will create a system limit for the amount of units
        that a provider can submit monthly for each unit type.”

With respect to our third and fourth findings on client citizenship and age verification, the State
agency said that this information was and is available through the interface with Nebraska’s Vital
Statistics system and is thus not maintained separately. On this basis, the State agency indicated
that it questioned our findings regarding the ineffective controls for client citizenship and age
verification. The State agency added that it had, beginning in March 2012, implemented a new
citizenship verification process that uses an interface with SSA to verify citizenship of
participants in new Medicaid or TANF cases. According to the State agency, this process will
verify citizenship of participants who are also receiving childcare. The State agency said that it
“… will expand this verification to all participants in a Childcare Program.”

With respect to insufficient written policies and procedures, the State agency said that it hired an
internal auditor in October 2011 and that it had, in the past year, issued several department-wide
internal control policies and documented numerous processes and procedures. “The Department
will continue to review all its internal control policies and procedures on an ongoing basis.”

The State agency’s comments, excluding technical comments, appear as Appendix H.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that all of our findings and the associated recommendations remain valid. With
respect to the State agency’s comments that the documentation of background checks in
NFOCUS during the time period covered by our review would have precluded the inclusion of
paper copies in the file, we examined the N-FOCUS ORG Background Check Detail to verify


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                            11
the background check documentation for the License Exempt Child Care providers. Our
references to “provider files” in our finding on provider background checks included both hard
copy (paper files) and electronic files (documentation within N-FOCUS). Accordingly, we
looked for both paper copies and electronic files in developing our finding that 14 of 100
reviewed claims lacked documentation of provider background checks.

With respect to the State agency’s comments on the role of the Vital Statistics interface in client
citizenship and age verifications, we understand that client citizenship and age information can
be verified in the Vital Statistics system and can be accessed through an interface in the
N-FOCUS system. We note, though, that if the verification is not documented in the case
narrative of the client’s N-FOCUS file, there is no assurance that the caseworker actually
performed the verification. We encourage the State agency to explore the implications of this
possibility as it continues to strengthen its controls and enhance its policies and procedures.

                                              OTHER MATTERS

The State agency did not require periodic background checks on licensed and nonlicensed
providers once they had been initially approved to provide childcare services. 16 The State
agency performed background checks on each provider and/or its employees at the time of the
provider’s initial application or when a change in the provider status required a new application.
However, after the initial application and background checks, the provider might not again
undergo the application-and-review process for many years, if at all, which could result in
providers and employees going unchecked for many years. We identified 16 of 100 claims 17 for
which the provider files indicated that the most recent background checks were over 5 years
old. 18 For 10 of these 16 claims, the providers’ most recent background checks were performed
between 6 and 10 years before April 30, 2010, and for the remaining 6 claims the providers’
most recent background checks were performed more than 10 years earlier than April 30, 2010.
We estimated that $34,386,761 ($18,352,214 Federal share) 19 of the Child Care Subsidy program
claims could have similar issues as the one noted above.

We noted two additional issues with the State agency’s provider background check procedures.
First, the State agency had not established formal procedures for conducting annual inspections

16
   While not a requirement in Nebraska, some States conduct periodic background checks. Our analysis of
questionnaires obtained from an ongoing Office of Inspector General evaluation showed that 25 of 50 States self-
reported that they required childcare providers to undergo periodic background checks ranging from every 1 to 6
years, with an average frequency of approximately every 3 years (all of these State background checks consisted of,
at a minimum, a child abuse check and/or a State criminal records check). Seventeen other States, including
Nebraska, self-reported that they did not require any periodic background checks.
17
  The 16 claims were in addition to the 14 claims that we identified as errors in “Provider Eligibility Controls”
earlier in this report.
18
  We calculated the length of time, in years, that had lapsed between the date of the most recent background check
and the first day of our audit period, April 30, 2010.
19
  To calculate the Federal share, we multiplied the $34,386,761 point estimate (Appendix D) by the 53.37 percent
aggregate Federal share percentage (Appendix C).



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                              12
at the licensed providers’ facilities, increasing the risk that the annual inspections could be
executed inconsistently by the various State agency investigators or not be conducted at all. In
the absence of formal procedures, some State agency investigators conducted annual inspections
of licensed providers, which included examining a sample of employee background check
documentation to ensure that each of the employee files contained the completed background
checks. 20 Second, the State agency’s background check procedures were not comprehensive in
nature, in that those checks did not fully use other existing registries to identify childcare
providers with substantiated reports of abuse or neglect. For instance, the State agency required
that providers and their employees be checked against the State registries but did not require that
out-of-State registry checks or criminal history checks be conducted. 21




20
   These examinations consisted of the State agency selecting, from each provider, either approximately five
employees or all of the new employees, whichever was greater. We selected and reviewed 29 different provider
files, located in 2 State field offices that we visited, and verified that the State agency was performing these
examinations during our audit period.
21
  In this context, the prior GAO report mentioned earlier (GAO-10-1062) suggested that States evaluate the
feasibility of requiring all providers, including relative providers, to undergo national fingerprint criminal history
checks and screenings against the national sex offender registry. Moreover, since the conclusion of our audit work,
ACF has issued a Notice of Proposed Rulemaking that proposes regulatory changes that would improve health and
safety protections for children receiving CCDF assistance. Among these proposed changes are provisions for
greater use of other existing registries in the performance of background checks (78 Fed. Reg. 29422, 29465
(May 20, 2013)).


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                              13
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the State agency’s controls for client and provider eligibility determinations and for
claims processing for the period of April 1, 2010, through March 31, 2011. We did not review
the State agency’s overall internal control structure. We reviewed only those controls that
pertained to our objective. For our audit period, the State agency paid childcare claims totaling
$90,305,946.

We conducted fieldwork at the State agency in Lincoln, Nebraska, from December 2011 to
February 2012.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and program guidance for the CCDF
         program;

     •   reviewed applicable State laws and the approved Nebraska CCDF State plans related to
         the Child Care Subsidy program for FYs 2010 and 2011;

     •   reviewed the State agency’s ACF-696 reports 22 and supporting documentation for FYs
         2009 through 2011 to determine the amount of childcare payments that were included in
         each FY’s report and the breakdown of the payments charged to each funding source
         (Federal or State funds);

     •   interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
         understanding of how the reports were prepared, how the childcare claims were reported,
         and what documentation the State agency maintained to support these claims;

     •   interviewed State agency staff to obtain an understanding of the policies, procedures, and
         guidance used to determine childcare client and provider eligibility and claims
         processing;

     •   interviewed State agency staff to obtain an understanding of the State agency’s specific
         controls for

             o client eligibility (citizenship, age, family income, and need for service),



22
  States are required to report childcare assistance expenditures to ACF on the quarterly Child Care and
Development ACF-696 Financial Report (ACF-696 report), which is a cumulative report for the FY. The ACF-696
report summarizes the total childcare assistance expenditures made by the State agency and identifies the funding
sources (Federal or State funds) that the State agency used for childcare assistance expenditures.


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                         14
             o provider eligibility (background checks, required forms, and provider rate
               agreements), and

             o claims processing (providers and clients living at the same address, supervisor
               approval of excess units provided and excess rates paid, and units and rates paid
               compared to the State agency’s established amounts);

     •   obtained the paid claims data from the State agency for the period April 1, 2010, through
         March 31, 2011;

     •   reconciled paid claims data with the State agency’s accounting system and the ACF-696
         reports to ensure that the childcare paid claims population that we used to perform the
         tests of controls represented the amounts that the State agency claimed for Federal
         reimbursement;

     •   divided the claims paid during our audit period into 2 strata by provider type (1 stratum
         for licensed provider types 23 and 1 stratum for nonlicensed provider types 24) and
         randomly selected 50 claims from each stratum, totaling 100 claims reviewed;

     •   reviewed the 100 randomly selected paid claims’ case files (electronic or paper) to
         evaluate the adequacy of the State agency’s controls for client eligibility determinations,
         and specifically:

             o determined whether each case file contained the completed application,
               citizenship documentation, and verification of family income and hours worked
               and

             o recomputed the child’s age based on date of birth and date of service to verify that
               the child was under 13 years old, unless special needs or protective needs had
               been documented;

     •   reviewed the provider files related to the 100 randomly selected paid claims to evaluate
         the adequacy of the State agency’s controls for provider eligibility determinations and
         specifically determined whether each provider file contained documentation of the
         required background checks and evaluations, the required provider forms, and an
         approved provider application;

     •   reviewed the 100 randomly selected paid claims to evaluate the adequacy of the State
         agency’s controls for claims processing by specifically (1) determining whether billing of
         more than the approved units of service per service period had supervisor approval,


23
  Licensed provider types include childcare centers, family childcare home I providers, and family childcare
home II providers.
24
  Nonlicensed provider types include license-exempt providers and in-home providers who provide care in the
child’s home.


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                         15
        (2) determining whether paid claims exceeded the approved number of units, and
        (3) analyzing instances in which the provider address and client address were the same;

    •   used the results of the claims review to determine the impact of the deficiencies in the
        ineffective controls identified using the variable appraisal;

    •   applied the aggregate Federal share percentage (Appendix C) to the point estimate
        (Appendix D) to estimate the Federal share of the impact of the deficiencies in the
        ineffective controls; and

    •   discussed the results of our review with State agency officials on August 8, 2012.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                             16
           APPENDIX B: STATISTICAL SAMPLING AND MATHEMATICAL
                        CALCULATION METHODOLOGY

POPULATION

The population consisted of the paid childcare claims in the State of Nebraska from April 1,
2010, through March 31, 2011.

SAMPLING FRAME

The sampling frame was a database of 474,455 paid childcare claims totaling $90,305,946.

SAMPLE UNIT

The sample unit was a paid childcare claim.

SAMPLE DESIGN

We used a stratified sample consisting of two strata, based on the grouped provider types.

Stratum 1 consisted of 416,975 paid claims totaling $78,036,612 paid to licensed providers.

Stratum 2 consisted of 57,480 paid claims totaling $12,269,334 paid to nonlicensed providers.

SAMPLE SIZE

We selected 50 paid childcare claims per stratum for a total of 100 paid childcare claims.

SOURCE OF RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services, statistical software (RAT-STATS).

ESTIMATION METHODOLOGY

We used RAT-STATS to estimate the costs associated with the control deficiencies in total.
Because the paid childcare payments included both Federal and State paid claims, we developed
an aggregate percent to identify the approximate Federal share of the total cost associated with
the control deficiencies. We calculated the aggregate percentage by determining the amount of
childcare paid claims that were reported on each quarterly ACF-696 report for each fund type
(Federal funds, State fund, and matching funds) and divided the total Federal funds by the total
paid childcare claims for the audit period. (See Appendix C for the calculation.)




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                          17
                APPENDIX C: AGGREGATE FEDERAL SHARE PERCENTAGE

            ALLOCATION OF PAID CHILDCARE CLAIMS ON ACF-696 REPORT

Quarter            Mandatory           Matching         Discretionary         Maintenance            ARRA 25
                     (100%              (FMAP              (100%                of Effort             (100%
                    Federal)           Federal &          Federal)            (100% State)           Federal)
                                         State)
4/1/2010–             $1,775,000        $5,266,415           $8,325,000            $5,055,412        $1,812,000
6/30/2010
7/1/2010–              1,775,000          2,397,946           5,528,230            12,366,674         3,200,000
9/30/2010
10/1/2010–             1,300,000          4,743,676           6,650,000             9,260,731                   0
12/31/2010
1/1/2011–              2,240,000          3,168,894           6,272,619             9,154,282                   0
3/31/2011
Total                 $7,090,000       $15,576,731          $26,775,849           $35,837,099        $5,012,000

                                 FEDERAL PORTION OF MATCHING

       Quarter          Matching             FY 2009           FY 2010              FY 2011
      4/1/2010–         $5,266,415             $19,278          $5,247,137                      $0
      6/30/2010
      7/1/2010–          2,397,946                 2,721          2,395,025                      0
      9/30/2010
     10/1/2010–          4,743,676                      0         2,254,343           2,489,333
     12/31/2010
      1/1/2011–          3,168,894                      0                     0       3,168,894
      3/31/2011
        Total           $15,576,731             $21,999         $9,896,505           $5,658,227
     FMAP Rate                                  59.54%             60.56%               58.44%
       Federal                                  $13,098         $5,993,323           $3,306,668 $9,313,089
       Portion

                                   FEDERAL SHARE PERCENTAGE

                                                      Total                               Federal
            Mandatory                              $7,090,000                           $7,090,000
             Matching                              15,576,731                            9,313,089
          Discretionary                            26,775,849                           26,775,849
      Maintenance of Effort                        35,837,099                                0
              ARRA                                  5,012,000                            5,012,000
      Total Childcare Claims                      $90,291,679                           48,190,938
     Aggregate Federal Share                                                              53.37%

25
     American Recovery and Reinvestment Act of 2009 funds (P.L. No. 111-5).


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                          18
                         APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                                TOTAL DEFICIENCIES EXCLUDING
                             PROVIDER PERIODIC BACKGROUND CHECK

     Stratum      Frame          Frame          Sample       Value        Number of              Amount of
                   Size          Value           Size         of         Claims With            Claims With
                                                            Sample         Control                Control
                                                                         Deficiencies           Deficiencies
        1        416,975      $78,036,612          50       $10,218            7                   $1,503
        2         57,480      $12,269,334          50       $ 9,746           25                   $3,371

                            ESTIMATES OF CONTROL DEFICIENCIES
                         (Limits Calculated for a 90-Percent Confidence Interval)

                                                                Total Estimated Costs Associated with
                                                                         Control Deficiencies
                       Point estimate                                       $16,412,057 26
                        Lower limit                                          $ 7,007,326
                        Upper limit                                          $25,816,789

                                   PROVIDER PERIODIC BACKGROUND
                                        CHECK DEFICIENCIES

     Stratum      Frame          Frame          Sample       Value        Number of              Amount of
                   Size          Value           Size         of         Claims With            Claims With
                                                            Sample         Control                Control
                                                                         Deficiencies           Deficiencies
        1        416,975      $78,036,612          50       $10,218           16                   $4,123
        2         57,480      $12,269,334          50       $ 9,746            0                     $0

                            ESTIMATES OF CONTROL DEFICIENCIES
                         (Limits Calculated for a 90-Percent Confidence Interval)

                                                                Total Estimated Costs Associated with
                                                                         Control Deficiencies
                       Point estimate                                       $34,386,761 27
                        Lower limit                                          $17,125,684
                        Upper limit                                          $51,647,838


26
  As discussed earlier in footnote 15, to calculate the $8,759,115 Federal share shown in “Costs Associated With
Deficiencies,” we multiplied this $16,412,057 point estimate by the 53.37 percent aggregate Federal share
percentage (Appendix C).
27
 As discussed earlier in footnote 19, to calculate the $18,352,214 Federal share shown in “Other Matters,” we
multiplied this $34,386,761 point estimate by the 53.37 percent aggregate Federal share percentage (Appendix C).


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                             19
                                              APPENDIX E: SUMMARY OF SAMPLED ITEMS

   Sample Claim Information                 Client Eligibility Missing              Provider Eligibility Missing          Claim Processing Missing
Sample     Paid      Deficient    Citizenship    Need          Family    Over   Background Required         Provider    Unit in   Units Not     Same
 Order     Claim       Claim       w/ Social       For         Income     13      Check        Forms      Agreement    Excess of Approved Address
          Amount      Amount      Security #    Service Verification                                                   Approved
LS1       $275.00       $0.00
LS2         79.20        0.00
LS3        673.00        0.00
LS4        140.00        0.00
LS5         81.25        0.00
LS6         51.48        0.00
LS7        570.00        0.00                                                       O
LS8        651.00        0.00
LS9        376.13        0.00                                                       O
LS10        38.00        0.00
LS11        30.00        0.00                                                       O
LS12        23.63        0.00
LS13       375.00        0.00
LS14        93.00        0.00
LS15       111.00        0.00
LS16       420.00      420.00                                                                                             X          X
LS17       550.00        0.00
LS18        22.00        0.00                                                       O
LS19       520.00        0.00
LS20       279.00        0.00                                                       O
LS21        37.13        0.00                                                       O
LS22        22.50        0.00                                                       O
LS23        44.00        0.00                                                       O
LS24        73.72        0.00
LS25        44.00       44.00         X                                   X
LS26         2.75        0.00
LS27        39.50        0.00


Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                            20
   Sample Claim Information                 Client Eligibility Missing              Provider Eligibility Missing          Claim Processing Missing
Sample     Paid      Deficient    Citizenship    Need          Family    Over   Background Required         Provider    Unit in   Units Not     Same
 Order     Claim       Claim       w/ Social       For         Income     13      Check        Forms      Agreement    Excess of Approved Address
          Amount      Amount      Security #    Service Verification                                                   Approved
LS28      $200.00       $0.00
LS29       266.40        0.00
LS30       750.00        0.00                                                       O
LS31        94.50        0.00
LS32       210.00      210.00         X                                   X         O
LS33       600.00        0.00                                                       O
LS34        57.00        0.00
LS35       155.00        0.00
LS36        13.06        0.00
LS37        25.00        0.00
LS38       261.50        0.00                                                       O
LS39        37.60        0.00                                                       O
LS40       420.00      420.00                                  X                    O
LS41        66.50        0.00
LS42        64.50       64.50         X                                   X
LS43       126.00        0.00                                                       O
LS44       121.25        0.00
LS45       200.00        0.00
LS46       208.00        0.00
LS47        36.75        0.00
LS48       246.75      246.75         X                        X          X
LS49       337.50        0.00                                                       O
LS50        98.00       98.00         X                                   X
NLS1        75.00       75.00                                                                                                        X
NLS2       330.00        0.00
NLS3       130.00      130.00                                                       X
NLS4        45.00        0.00




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                            21
   Sample Claim Information                 Client Eligibility Missing              Provider Eligibility Missing         Claim Processing Missing
Sample      Paid      Deficient    Citizenship    Need         Family    Over   Background Required        Provider    Unit in   Units Not     Same
 Order     Claim       Claim        w/ Social      For         Income     13      Check        Forms      Agreement   Excess of Approved Address
          Amount      Amount       Security # Service Verification                                                    Approved
NLS5          $8.00      $8.00                                                      X
NLS6          52.00      52.00                                                      X
NLS7          74.25      74.25                                                                                                      X
NLS8           5.98       0.00
NLS9           6.00       0.00
NLS10         75.00       0.00
NLS11        157.50       0.00
NLS12        300.00       0.00
NLS13        175.00     175.00                                                                                                      X
NLS14        195.00       0.00
NLS15      1,348.50       0.00                                                                   X                                            X
NLS16         90.00       0.00
NLS17        330.00       0.00
NLS18         31.50      31.50                                                      X
NLS19         22.50       0.00
NLS20        105.00       0.00
NLS21        300.00       0.00
NLS22         45.50      45.50                                                                                                      X
NLS23         35.00      35.00                                                      X
NLS24         43.50      43.50                                                      X
NLS25        300.00       0.00
NLS26         13.00      13.00                                                      X
NLS27        198.00       0.00
NLS28         50.00      50.00         X                                  X                                                         X
NLS29        251.00       0.00
NLS30        104.00     104.00                                                      X
NLS31        924.71       0.00




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                            22
    Sample Claim Information                  Client Eligibility Missing              Provider Eligibility Missing         Claim Processing Missing
 Sample    Paid Claim Deficient      Citizenship    Need         Family    Over   Background Required        Provider    Unit in   Units Not    Same
  Order     Amount        Claim       w/ Social      For         Income     13      Check        Forms      Agreement   Excess of Approved Address
                        Amount       Security # Service Verification                                                    Approved
NLS32  $292.00 $292.00                                                                                                               X
NLS33   273.00    273.00                                                              X
NLS34     19.00     19.00                                                             X
NLS35     25.74     25.74                 X                                 X                                                        X
NLS36     94.50     94.50                                                             X
NLS37 1,271.98 1,271.98                                                               X
NLS38   108.50       0.00                                                                                                                      X
NLS39   162.00    162.00                                                              X
NLS40   125.00    125.00                                                                                                             X
NLS41     91.00      0.00
NLS42     50.00     50.00                                                                                                            X
NLS43   208.00       0.00
NLS44   105.00    105.00                                                                                                             X
NLS45   239.41       0.00
NLS46   515.54       0.00
NLS47     12.38     12.38                 X                                 X
NLS48   104.00    104.00                                                              X
NLS49   215.44       0.00
NLS50     13.00      0.00
TOTAL $19,964.03 $4,874.60                8          0           2          8         14           1           0           1         11        2


X: Claims with a control deficiency
O: Claims with provider periodic background check issues (not included in the projection of control deficiencies)




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                             23
                 APPENDIX F: FEDERAL AND STATE CRITERIA RELATED TO
                         CHILD CARE AND DEVELOPMENT FUND

PROVIDER ELIGIBILITY CRITERIA

Federal Regulations

Federal regulations (45 CFR § 98.11) delegate the overall responsibility for the administration of
the CCDF program to the lead agency and specify that the lead agency ensure that all State and
local or nongovernmental agencies operate according to the rules established by the program.

Federal regulations (45 CFR § 98.40(a)(1)) require that a lead agency certify that it has put in
effect licensing requirements applicable to childcare services provided within the area served by
the lead agency.

Federal regulations (45 CFR § 98.41) require that a lead agency certify that it has put in effect
provider health and safety requirements that are designed to protect children receiving childcare
services. Such requirements shall address the prevention and control of infectious diseases,
including immunizations; building and physical premises safety; and certain minimum levels of
health and safety training.

Federal regulations (45 CFR § 98.43(a)) require the State to certify that the rates paid to CCDF
providers are sufficient to ensure equal access, for eligible clients, to childcare services
comparable to those provided to families who are not eligible for CCDF assistance.

State Regulations and Provider Handbook

State regulations (392 NAC 5-001) require the State agency to take steps to ensure that providers
do not have substantiated reports of abuse or neglect. If the provider is an agency, the State
agency staff must review agency policies regarding hiring and reporting to ensure that
appropriate procedures regarding abuse or neglect are in place. If the provider is an individual,
the State agency staff must check the State registries to determine whether the provider is the
subject of any substantiated reports of abuse or neglect. If the provider provides services in his
or her own home, the State agency staff must also check the State registries to determine whether
household members of the provider are the subject of any substantiated reports of abuse or
neglect.

State regulations (392 NAC 5-001.01) require the State agency to take steps to ensure that before
childcare is provided, each provider receiving childcare funds signs the State agency’s Form
CC-9B, Child Care Provider Agreement, which documents the rates that the provider will
receive from the State for providing childcare to eligible clients.

The State agency’s Child Care Provider Handbook, Section III – Program Standards, requires all
providers to allow State registry checks to be performed on themselves and household members,
if appropriate. If the provider is an agency, the provider must agree to allow the State agency to
review its policies regarding hiring and reporting to ensure that appropriate procedures regarding



Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                             24
abuse or neglect are in place. If a report of abuse or neglect has been substantiated, the State
agency will not contract with the provider. If the provider is a current Child Care Subsidy
provider and if a report of abuse or neglect concerning the provider (or a household member) as
perpetrator is substantiated, State agency staff will immediately terminate the provider agreement
and notify relevant State agency officials.

State agency procedures require the State agency to take steps to ensure that providers receiving
Child Care Subsidy funds have completed various forms: a provider agreement, release of
information, Federal W-9 tax form, proof of insurance, and provider checklist.

CLAIMS PROCESSING CRITERIA

Federal Regulations

Federal regulations (45 CFR § 98.11) delegate the overall responsibility for the administration of
the CCDF program to the lead agency and specify that the lead agency ensure that all State and
local or nongovernmental agencies operate according to the rules established by the program.

Federal regulations (45 CFR § 98.43(a)) require the State to certify that the rates paid to CCDF
providers are sufficient to ensure equal access, for eligible clients, to childcare services
comparable to those provided to families who are not eligible for CCDF assistance.

State Regulations

State regulations (392 NAC 000-203, Manual Letter number 48-2009) establish the State’s
maximum rates and require the State agency to take steps to ensure that payments to providers
receiving childcare funds do not exceed those specific rates established by the State. Those rates
vary based on provider type, child age, geographic region, and unit type.

State regulations (392 NAC 2-004) establish the requirements for the file contents of the State’s
case records, which must include appropriate forms for and documentation of: the request for
services or the application, income verification, and service eligibility.

State regulations (392 NAC 3-008.01A) state that providers receiving childcare funds are limited
to the units of childcare provided, to a maximum of 18 hours per day and 60 hours per week.

State regulations (392 NAC 5-001(3)) state that providers receiving childcare funds are not the
parent, stepparent, caretaker relative or foster parent, or subsidized adoptive parent of the minor
child receiving childcare, or the legal guardian, subsidized guardian, spouse, or minor child of
the childcare client.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                             25
CLIENT ELIGIBILITY CRITERIA

Federal Requirements

Federal regulations (45 CFR § 98.11) delegate the overall responsibility for the administration of
the CCDF program to the lead agency and specify that the lead agency ensure that all State and
local or nongovernmental agencies operate according to the rules established by the program.

Federal regulations (45 CFR § 98.20(a)(1)) require that a child be under 13 years old, be under
19 years old and physically or mentally incapable of caring for himself or herself, or be under
court supervision, to be eligible for childcare under the CCDF program.

Federal regulations (45 CFR § 98.20(a)(2)) state that to be eligible for childcare under the CCDF
program, a client must reside with a family whose income does not exceed 85 percent of the
State’s median income for a family of the same size.

Federal regulations (45 CFR § 98.20(a)(3)) state that to be eligible for childcare assistance, a
child shall reside with a parent or parents who are working or attending a job training or
educational program, or a child shall receive, or need to receive, protective services.

Title IV of the Personal Responsibility and Work Opportunity Reconciliation Act of 1996, P.L.
No. 104-193, as amended, prohibits individuals who are not U.S. citizens or qualified aliens from
receiving Federal public benefits. The CCDF is considered a Federal public benefit, and
citizenship and immigration status must be verified (63 Fed. Reg. 41662 (August 4, 1998)).

State Regulations

State regulations (392 NAC 3-003) require that in order for a child to receive Child Care Subsidy
assistance, the child must be a citizen of the United States or a qualified alien.

State regulations (392 NAC 3-005.04) require that clients receiving childcare provide
verification of the client family’s earned income with a copy of check stubs, a statement from his
or her employer, or, if self-employed, a copy of latest income tax return(s) or bookkeeping
records.

State regulations (392 NAC 3-007) state that childcare is available for children aged 12 years old
or under, aged 18 years old or under with special needs, or under court supervision or involved in
protective services. The child’s age must be verified in order to qualify for childcare.

State regulations (392 NAC 3-008.01) state that a case manager may authorize childcare services
for eligible clients only if each parent or usual caretaker: is employed or actively seeking
employment; is participating in an Employment First activity; requires childcare to obtain
medical services; is enrolled in and regularly attending vocational, educational, or on-the-job
training; is incapacitated; would benefit from childcare services in situations of abuse, neglect, or
exploitation; has a child in foster care and requires childcare to receive Social Services Block




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                             26
Grant assistance or community services directed toward the return of the child to the home; or
needs to escort a child to receive medical care or visit a child in the hospital.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                           27
            APPENDIX G: CONTROLS TESTED THAT WERE DETERMINED
                             TO BE EFFECTIVE

PROVIDER ELIGIBILITY

Maintenance of Required Provider Forms

The State agency should have controls in place to prevent payment to providers that have not
completed all of the forms that the State agency requires.

Control Design

The State agency required each provider to complete various provider forms so that the State
agency could determine the provider’s compliance with childcare rules and regulations. State
agency officials told us that they maintained scanned copies of the forms in the provider file.

Test Results

Of the 100 claims that we reviewed, we determined that the State agency maintained copies of
all of the required provider forms for 99 of the claims. However, we identified one claim that
did not have all of the required provider forms on hand in the case file.

Provider Rate Agreements

The State agency should have controls in place to prevent payment to providers at rates that
exceed the rates agreed upon between the provider and the State agency.

Control Design

The State agency required each provider to complete and sign a provider agreement that
documented the agreed-upon rates. State agency officials told us that they maintained a scanned
copy of the provider agreement in the provider file.

Test Results

For all 100 of the claims that we reviewed, we determined that the rates paid to the providers did
not exceed the approved and agreed-upon rate.

CLAIMS PROCESSING

Provider/Client Relationship

The State agency should have controls in place to prevent payments to providers for care of their
own children.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                            28
Control Design

To ensure that the State agency prevented payments to providers who were caring for their own
children, the State agency’s N-FOCUS system prompted the State agency to determine whether
or not the provider and the client were relatives. State agency officials told us that the State
agency also documented the provider/client relationship in the N-FOCUS case narrative.

Test Results

Of the 100 claims that we reviewed, we determined that there were no indicators of familial
relationship for 98 of the claims. However, we identified two claims for which the provider’s
address and the client’s address were the same at some point in time, conveying the possibility
that a familial relationship existed between the two individuals. However, the State agency did
not note any such relationship in the case files.

Documentation of Supervisor Approval of Excess Rates and Excess Units

The State agency should have controls in place to prevent excess payment amounts to providers
without proper supervisor approval.

Control Design

State agency officials told us that to ensure that the State agency met the requirements related to
supervisor approval of excess rates and excess units, in cases when a client was eligible for
childcare services that exceeded the maximum hours permitted by State regulations, the client’s
caseworker could obtain approval from the supervisor (at the State agency) for excess rates paid
or excess units provided. State agency officials added that the supervisor documented the reason
for approval in the case file. Furthermore, employees in the State agency’s field offices
monitored the detailed billing documentation that providers submitted to ensure that providers
were not billing for unreasonably excessive amounts. When excessive billing amounts were
identified, the State agency followed up with the provider before approving or denying the
payment.

Test Results

Of the 100 claims that we reviewed, we determined that for 99 claims, providers were not paid
for excessive rates or excessive units without State agency supervisory approval. However, we
identified one claim for which the units of childcare provided to the client by the provider were
excessive when compared to the actual hours worked by the client; in addition, there was no
supervisor approval in this instance for the excess units provided.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                              29
CLIENT ELIGIBILITY

Family Income Verification

The State agency should have controls in place to prevent payments to providers on behalf of
clients who exceed the State-designated income amounts.

Control Design

State agency officials told us that to ensure that the State agency met the requirements related to
preventing payment to providers on behalf of clients who did not meet the State-designated
income amounts, the State agency verified income by obtaining documentation from the client’s
family, including pay stubs and employment verifications signed by the employer. The State
agency also checked various systems, including the State Employee Wage interfaces, the
Integrated Unemployment Compensation interface, and the Child Support Enforcement
interface, to identify any income that was unreported by the client’s family. Furthermore, the
State agency’s N-FOCUS system interfaced with the State of Nebraska’s New Hire Match
system, which alerted the State agency whenever a member(s) of a client’s family gained new
employment during the service period.

Test Results

Of the 100 claims that we reviewed, we determined that for 98 claims, the documentation
demonstrated that clients did not exceed State-designated income amounts. However, we
identified two claims for which the case file did not contain the client’s family income
verification.

Need-for-Service Eligibility

The State agency should have controls in place to prevent payments to providers on behalf of
clients who have no eligible need for service.

Control Design

State agency officials told us that to ensure that the State agency met the requirements related to
preventing payment to providers on behalf of clients with no eligible need for service, the State
agency obtained documentation from the client, to ensure that the client had an eligible need for
childcare, and maintained the documentation in the case file. Need-for-service documentation
included employment verification letters completed by the client’s employer, pay stubs, school
schedules, and similar documents.

Test Results

For all 100 of the claims that we reviewed, the client families’ need for service was documented
in the case files.




Nebraska’s Controls for Its Child Care Subsidy Program (A-07-11-03167)                            30
                              APPENDIX H: STATE AGENCY COMMENTS 





                                                                                                                  State of Nebraska
                                                                                                                Dave Heineman, Governor
      N   t   B R A S K A
              November 25, 2013




              Report Number: A-07-11-03167

              Mr. Patrick J. Cogley 

              Regional Inspector General for Audit Services 

              Department of Health and Human Services 

              Office of Inspector General
              601 East l21h Street, Room 0429 

              Kansas City, MO 64106 


              Dear Mr. Cogley,

              This letter i s in regards to your draft report entitled Not All of Nebraska's Controls for its Child Care
              Subsidy Program Claims Were Effective. At t his time, we would like to provide the following respo nses
              to your findings.

              State Agency Controls for Provider Background Checks Were Not Effective
                      The period of review was April1, 2010 through March 31, 2011. During the re view time frame
                      the Departm ent's Resource Development staff would have loaded/documented the background
                      checks for License Exem pt Child Care Providers into the NFOCUS ORG Background Check Detail
                      and there would not have been paper co pies in the file. The release of information would have
                      been the provider brown file (also in Scanned Images). Resource Development wou ld not have
                      been printing any background check reco rd s. The Department will continue to have Resource
                      Develo pment staff document the required background checks in the NFOCUS ORG Background
                      Check Detail. Before enrolling a provider into the Child Care Subsidy Program, Resource
                      Deve lopment staff will check the Nebraska Adu lt and Child Abuse Registries, Nebraska law
                      enforcement reco rd s, The Nebraska Depa rtment of Motor Ve hicles Driver License Information
                      Syst em, and Nebraska's License Informatio n System. These checks are done for license -exemp t
                      pro viders and licensed Fami ly Child Care Homes I and II.

                      The Department will revi ew a percentage of Child Ca re Provider f iles monthly to ensure all
                      required background checks are completed and documented appropriately.

                      The Department w ill develo p a background checks process/proced ure guid e f or staff responsible
                      provider app rovals on complet in g backgro und checks on Chi ld Care Subsidy Providers. Thi s will
                      provide a consisten t procedure to complete background checks State Wide.

              State Agency Controls for Childcare Payment Amounts (Ra tes and Units) Were Not Effective
                      In August of 2012, the Department started a process where a sam ple child care claims are tested
                      each mo nth for accuracy by comparing the claim to the provider attendance reco rds to ensure
                      that providers are being paid only for child care that they provided during approved hours. The
                      State Agency w ill continue this testing to ensure t he accuracy of provider claim submission.


                                                         Helping People Live Better Lives
                                                        An Equal Ooportunily/Aff.1mab\oe Adlon E~yer
                                                             printed witt Sl.1y ink on recycled paper




Nebraska 's Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                                   31
                   The Department maintains a Child Care Jo b Aid f or eligibility staff t o use to create authori zations
                   to ens ure that app ropri at e documentation is provided in the authorizatio n descriptions
                   identifying what days and times t he client is approved for child care. The ema il reflecting
                   current Job Aid is attached as Exhibit 1.

                   The Department will review a sam ple of child care authorizations monthly to test for accuracy of
                   need for service and of the units a client is authorized.

                   The Department will review a percent age of Child Care Provider files monthly to ensure that
                   NFOCUS system is updated to match t he provider' s st atus, appropriate rates are established f or
                   the specific provider type, and required documentation are in the provider f ile.

                   The De partment will cr eate system edits regarding provider claim submission. The Department
                   will create a system limit for the amount of units that a provider can subm it monthly for each
                   unit type.

           State Agency Controls for Client Citizenship and Age Verification Were Not Effective
                   The Department uses a comp uter interface w ith Vital St atist ics which ve rifies the birth of all
                   children born in Nebras ka . This interface provides an electronic view of all Nebraska birth
                   Certificates which were issued on or after January 1, 1995. Thi s interface was in place during the
                   review and w ill continue.

                   The interface information documenting the verification is always available through the interfa ce
                   so is not maintain se parately from th e interface. The Department is not confident that this point
                   was understood during the OIG review thus questions t he number of cases w he re verification
                   was fo und .

                   A new citizenship verification process was implemen t ed in March 2012 with the Socia l Security
                   Administration (SSA). The Department has an interface with the SSA that ve rifi es citizenship of
                   participants in a new Medicaid or TANF case. If a part icipant is also receiving Childcare, the
                   citizensh ip will be ve rified fo r them as well. The Department w ill expa nd this verification t o all
                   participants in a Childcare Program.

           State Agency Did No t Have Sufficient Written Policies and Procedures
                   In October 2011, the De partment hired an Interna l Auditor to review and enhance the
                   Department's internal co ntrols. During the past year, the Department ha s issued severa l
                   Depa rt ment wide internal control policies and numerou s processes and procedures have been
                   documented. The Department will continue to review all its internal control policies and
                   proced ures o n an ongoi ng basis.




Nebraska's Controls for Its Child Care Subsidy Program (A-07-11-03167)                                                        32
            If yo u have any questio ns or comments regarding our responses, please cont act me at 402-471-9213 or
            kev in. r.nelson@nebraska .gov.

            Sin cerely,


            L~ ~cPA                 )
            Kevin R. Ne lso n, CPA
            Interna l Auditor, Nebraska Department
                      Of Healt h and Human Services

            Cc:      Th oma s Pristow, Director of Children and Family Servi ces
                               Nebraska Depa rtment o f Hea lt h and Human Services
                     Jill Schreck, Deputy Director; Economic Assista nce
                               Nebraska Department of Hea lth and Human Services
                     Ter i Chasten , Economic Assistance Po licy Chief
                               Nebraska Departme nt of Hea lt h and Human Services
                     Willard Bouwen s, Fin ancial Services Adm ini strator
                               Nebraska Department of Hea lth and Human Services




Nebraska's Controls for Its Child Care Subsidy Program (A-07-I I -03I 6 7)                                           33
